No. 21-

SUPREME COURT OF THE UNITED STATES
CHRISTOPHER NATHANIEL BROWN,
Petitioner,
vs.
STATE OF FLORIDA,
Respondent.

TABLE OF APPENDICES

APPENDIX A: Opinion of the highest state court

APPENDIX B: Denial of Rehearing and Rehearing En Banc

APPENDIX C: Order Denying Discretionary Jurisdiction

Brown v. State, — So.3d — (2020)
45 Fla. L. Weekly D1608

2020 WL 3637601
NOTICE: THIS OPINION HAS NOT
FOR
RELEASED
BEEN
THE
IN
PUBLICATION
PERMANENT LAW REPORTS.
UNTIL RELEASED, IT IS SUBJECT
TO REVISION OR WITHDRAWAL.

West Headnotes (2)

[11

llOCriminal Law

District Court of Appeal of Florida,__
First District.

Certified "Copy of victim’s
judgment and sentence for
murder and armed robbery was
inadmissible at trial on charge of
second-degree
murder
to
defendant’s
corroborate
testimony that he knew victim
had committed murder and
armed
robbery;
although
defendant sought to introduce
certified copy to support theory
of self-defense, it was not
relevant to defendant’s state of
mind given that no evidence
showed that defendant knew
about judgment and sentence.
Fla. Stat. Ann. §§ 90.405(21.
90.404m(b¥U.

Christopher Nathaniel BROWN,
Appellant,
v.

STATE of Florida, Appellee.
No. 1D18-5205
July 6, 2020

Synopsis
Background: Defendant was convicted
in the Circuit Court, 4th Judicial Circuit,
Duval County, Steven B. Whittington.
J., of second-degree murder. Defendant
appealed.

fHolding:! The District Court of
Appeal, Rowe. J., held that certified
copy of victim’s judgment and sentence
for murder and armed robbery was
inadmissible at trial to support
defendant’s self-defense claim.
Affirmed.

Criminal Law»»

[2]

Criminal Lawe°
llOCriminal Law

A trial court has wide discretion
concerning the admission of
evidence, and, unless an abuse
of discretion can be shown, its

WESTLAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Brown v. State, — So.3d —- (2020)
45 Fla. L. Weekly D1608

rulings will not be disturbed on
appeal.

On appeal from the Circuit Court for
Duval County. Steven B. Whittington.
Judge.
Attorneys and Law Firms
Andy Thomas, Public Defender, and
Glen P. Gifford. Assistant Public
Defender, Tallahassee, for Appellant.
Ashley Moody. Attorney General, and
Quentin Humphrey, Assistant Attorney
General, Tallahassee, for Appellee.
Opinion
Rowe, J.
*1 Christopher Nathaniel Brown
appeals his judgment and sentence for
second-degree murder. He claims that
the trial court erred in four respects: 1)
by applying the incorrect standard when
ruling on his motion for Stand-YourGround immunity; 2) by excluding a
certified copy of the victim’s judgment
and sentence for murder and armed
robbery; 3) by incorrectly instructing
the jury on justifiable use of deadly
force; and 4) by denying his motion for
continuance. Brown’s first claim of
error fails under the Florida Supreme

Court’s recent decision in Love v. State,
286 So. 3d 177 (Fla. 2019). And we find
no error in Brown’s remaining claims.
We write only to address his second
claim.
Brown was charged with second-degree
murder after shooting and killing a man
outside a convenience store. At trial,
Brown sought to introduce the victim’s
certified judgment and sentence for
murder and armed robbery to support
his theory of self-defense. Brown
argued that the evidence was relevant to
corroborate his testimony that he knew
that the victim committed murder and
armed robbery.
The State did not object to Brown’s
testimony about his knowledge of the
murder and armed robbery committed
by the victim. The State conceded that
Brown’s testimony about specific acts
of violence by the victim was relevant to
show Brown’s state of mind. The State
also did not object to testimony on the
victim’s reputation for violence. But as
to the victim’s certified judgment and
sentence, the State argued that the
evidence was unfairly prejudicial and
not admissible as evidence of specific
acts by the victim.
The trial court ruled that it would allow
Brown to testify that he knew that the
victim committed murder and armed
robbery because the testimony was
relevant to show Brown’s state of mind.
But the trial court ruled that it would not
admit evidence of the certified
judgment and sentence. The trial court
observed that although the victim was

WESTIAW © 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Brown v. State, — So.3d —- (2020)
45 Fla. L. Weekly D1608

convicted, the judgment and sentence
did not prove that Brown knew about it,
and thus the evidence did not go to
Brown’s state of mind at the time of the
shooting.
Following the trial court’s ruling,
Brown testified that he knew that the
victim had committed murder and
armed robbery. The jury returned a
verdict finding Brown guilty as charged
for second-degree murder. This timely
appeal follows.
trial court has wide discretion
concerning the admission of evidence,
and, unless an abuse of discretion can be
shown, its rulings will not be disturbed.
See Hudson v. State. 992 So. 2d 96, 107
(Fla. 2008). Brown argues that the trial
court abused its discretion by excluding
evidence of the victim’s certified
judgment and sentence. He asserts that
the evidence was relevant and
corroborated his testimony that he knew
that the victim committed murder and
armed robbery.
Under section 90.405(2) of the Florida
Evidence Code. “[w]hen character or a
trait of character of a person is an
essential element of a charge, claim, or
defense, proof may be made of specific
instances of that person’s conduct.” And
section 90.404(1)(b¥l) of the evidence
code, with some limitations, allows the
defendant to offer “evidence of a
pertinent trait of character of the victim
of the crime.” In applying these
evidentiary rules, the Florida Supreme
Court has held that a defendant’s
testimony about specific acts of
WESTLAW

violence by a victim is relevant to show
“the reasonableness of the defendant’s
apprehension to support a self-defense
claim.” State v. Smith, 573 So. 2d 306.
318 (Fla. 1990). But as for evidence that
is corroborative of the defendant’s
testimony about the victim’s specific
acts of violence, the court observed that
third-party testimony about those acts
“is not relevant because it sheds no light
on the defendant’s state of mind.” See
id. The court pointed out that reputation
evidence may be relevant to reflect the
defendant’s state of mind, but specific
act evidence is not relevant. See icL Even
so, the court held that third-party
testimony
to
corroborate
the
defendant’s testimony concerning
specific acts of violence by the victim
may be admissible in limited
circumstances—where it “is first shown
that the defendant knew about the very
same acts of violence.” Id_ But the court
admonished that this type of evidence
should “be admitted cautiously in light
of the need to limit evidence of specific
acts because, inter alia, a jury may tend
to give the evidence too much weight,
or it may sidetrack the jury’s focus.” Id.

*

*2 Brown testified that he knew the
victim committed murder and armed
robbery. He did not seek to admit thirdparty testimony to corroborate his
testimony concerning specific acts of
violence by the victim. Instead, Brown
sought to admit the victim’s certified
judgment and sentence as corroborative
evidence. The trial court declined to
admit the certified judgment and
sentence. The court found relevant
Brown’s testimony that he knew the

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

- «

Brown v. State, — So.3d — (2020)
45 Fla. L. Weekly D1608

victim committed murder and armed
robbery. But the court observed that no
evidence showed that Brown knew
about the certified judgment and
sentence. And so, the trial court
excluded the certified judgment and
sentence from evidence, finding it was
not relevant to Brown’s state of mind.
We find no abuse of discretion by the
trial court in excluding the certified
judgment and sentence, particularly
given the Florida Supreme Court’s
admonition that trial courts are to
End of Document

WESTLAW

exercise caution when admitting
corroborative evidence of specific acts.
See icL Brown’s judgment and sentence
are Affirmed.

Ray. C.J., and Tanenbaum. J., concur.
All Citations
— So.3d —2020 WL 3637601, 45
Fla. L. Weekly D1608
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

APPENDIX: B

DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
August 13, 2020
CASE NO.: 1D18-5205
L.T. No.: 16-2014-CF-011861 -AXXX
Christopher Nathaniel Brown
Appellant / Petitioner(s),

v.

State of Florida
Appellee / Respondent(s)

BY ORDER OF THE COURT:
Appellant's motion docketed July 14, 2020, for rehearing and rehearing en banc is
denied.

I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Hon. Andy Thomas, PD
Glen P. Gifford, APD

th

kRISTINA SAMUELS, CLERK

Hon. Ashley Moody, AG
Robert Quentin Humphrey,
AAG

APPENDIX: C

Filing # 114446944 E-Filed 10/05/2020 03:42:36 PM

Supreme Court of Jflorfoa
MONDAY, OCTOBER 5, 2020
CASE NO.: SC20-1275
Lower Tribunal No(s).:
1D18-5205;
162014CF011861AXXXMA
CHRISTOPHER NATHANIEL
BROWN

vs.

Petitioners)

STATE OF FLORIDA
Respondents)

This cause having heretofore been submitted to the Court on jurisdictional
briefs and portions of the record deemed necessary to reflect jurisdiction under
Article V, Section 3(b), Florida Constitution, and the Court having determined that
it should decline to accept jurisdiction, it is ordered that the petition for review is
denied.
No motion for rehearing will be entertained by the Court. See Fla. R. App.
P. 9.330(d)(2).
POLSTON, LABARGA, LAWSON, MUNIZ, and COURIEL, JJ., concur.
A True Copy
Test:

Jofm A. Tomasino
Clerk, Supreme Court
db
Served:
GLEN P. GIFFORD
ROBERT Q. HUMPHREY
HON. STEVEN B. WHITTINGTON, JUDGE
HON. KRISTINA SAMUELS, CLERK
HON. RONNIE FUSSELL, CLERK

